Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    MEDICARE SUPPLIER
   ACQUISITION COSTS FOR
   L0631 BACK ORTHOSES




                    Daniel R. Levinson
                     Inspector General

                     December 2012
                     OEI-03-11-00600
EXECUTIVE SUMMARY: MEDICARE SUPPLIER ACQUISTION COSTS FOR
L0631 BACK ORTHOSES
OEI-03-11-00600

WHY WE DID THIS STUDY

From 2008 to 2011, Medicare claims for L0631 back orthoses more than doubled,
increasing Medicare allowances from $36 million to more than $96 million. Suppliers
may bill Medicare for a variety of back orthosis products using code L0631, and the
acquisition cost for each product may vary according to the manufacturer and model
provided. However, Medicare does not collect information on the supplier acquisition
costs or the models of L0631 back orthoses provided to beneficiaries. This study
provides information on supplier acquisition costs for L0631 back orthoses that could
assist the Centers for Medicare & Medicaid Services (CMS) in determining whether the
Medicare payment amount is appropriate.

HOW WE DID THIS STUDY

From CMS’s National Claims History file, we extracted Medicare claims for L0631 back
orthoses with dates of service between July 1, 2010, and June 30, 2011. We randomly
selected a sample of 350 suppliers and then randomly selected 1 claim from each. We
requested that suppliers provide the acquisition cost of the L0631 orthoses they purchased
for the claims, reflective of any discounts, rebates, fees, or charges. We also requested
that suppliers describe the services they provided to beneficiaries, including fitting and
adjustment services and instructions for using the orthoses.

WHAT WE FOUND

Medicare payment amounts were more than four times greater than supplier acquisition
costs for L0631 back orthoses. Between July 2010 and June 2011, the average
Medicare-allowed amount for L0631 back orthoses was $919 and the average supplier
acquisition cost was $191. Consequently, Medicare and its beneficiaries paid
approximately $37 million more for L0631 back orthoses than suppliers paid to acquire
them. Beneficiary copayments alone would have almost covered suppliers’ L0631
acquisition costs. The description for the L0631 back orthosis code includes not only the
orthosis but also fitting and adjustment services. However, for one-third of claims,
suppliers did not report providing fitting and adjustment services. For 93 percent of
claims, suppliers did not report providing any additional services regarding the L0631
back orthoses other than general instructions.

WHAT WE RECOMMEND

We recommend that CMS use supplier acquisition cost information to lower the fee
schedule amount for L0631 back orthoses by including it in the Competitive Bidding
Program or by using CMS’s inherent reasonableness authority. CMS concurred that
Medicare payments for L0631 back orthoses should be adjusted to more closely reflect
supplier acquisition costs and the level of service provided when furnishing the devices.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................3
Findings........................................................................................................7
           Medicare payment amounts were more than four times greater
           than the supplier acquisition costs for L0631 back orthoses ...........7
           Suppliers did not report providing fitting and adjustment services
           for one-third of claims .....................................................................8
Conclusion and Recommendation .............................................................10
            Agency Comments and Office of Inspector General Response .... 11
Appendixes ................................................................................................12
           A: Point Estimates and Confidence Intervals for L0631 Back
           Orthoses Findings ..........................................................................12
           B: L0631 Back Orthosis Models Provided to Beneficiaries ........15
           C: Agency Comments ..................................................................18
Acknowledgments......................................................................................20
                   OBJECTIVES
                   1. To compare the Medicare payment amount for L0631 back orthoses to
                      supplier acquisition cost.
                   2. To determine the extent to which suppliers provided services to
                      Medicare beneficiaries who received L0631 back orthoses.

                   BACKGROUND
                   The number of Medicare claims and total allowances for L0631 back
                   orthoses rose sharply from 2008 to 2011. During that time, Medicare
                   allowances for L0631 back orthoses more than doubled, increasing from
                   $36 million in 2008 to more than $96 million in 2011. 1 Although
                   Medicare pays for 13 different lower-back orthoses codes, in 2011 it paid
                   more for orthoses coded as L0631 than the other 12 lower-back orthoses
                   codes combined. 2
                   Medicare Coverage of Back Orthoses
                   Back orthoses provide back support, reduce back pain, and facilitate
                   healing of the spine. Medicare covers back orthoses prescribed for one of
                   the following indications:
                   •    to reduce pain by restricting mobility of the trunk,
                   •    to facilitate healing following an injury to the spine or related soft
                        tissue,
                   •    to facilitate healing following a surgical procedure on the spine or
                        related soft tissue, or
                   •    to otherwise support weak spinal muscles and/or a deformed spine. 3
                   To bill Medicare, a supplier must have a written order from a physician
                   indicating that the back orthosis is reasonable and necessary for the
                   beneficiary. Beneficiaries obtain back orthoses from suppliers, which
                   purchase them from manufacturers and wholesalers.




                   1
                     Summary analysis of the Centers for Medicare & Medicaid Services’ (CMS) Services
                   Tracking, Analysis, & Reporting System National Database.
                   2
                     Ibid.
                   3
                     Local Coverage Determination (LCD) for Spinal Orthoses: TLSO and LSO (L11470),
                   January 1, 2010. This is the LCD for one of the four claims processors for durable medical
                   equipment, prosthetics, orthotics, and supplies (DMEPOS). The other three claims processors
                   have identical LCDs. LCD L11470 was accessed at
                   http://www.medicarenhic.com/dme/medical_review/mr_lcds/mr_lcd_current/L11470_2010-
                   01-01_PA_2010-07.pdf on October 5, 2011.



Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                1
                   Medicare Payment for Back Orthoses
                   To obtain payment for covered equipment, suppliers submit claims using
                   procedure codes. The Healthcare Common Procedure Coding System
                   (HCPCS) provides a standardized coding system for describing specific
                   items and services provided. In the case of back orthoses, each HCPCS
                   code defines a type of orthosis but does not specify the individual models
                   covered under each code. Therefore, a single HCPCS code can be used to
                   bill for a number of different manufacturers’ products as long as they meet
                   the requirements outlined in the definition of the code.
                   There are 13 HCPCS codes (L0628 through L0640) for lumbar-sacral
                   (lower-back) orthoses. 4 Medicare allowed $166 million for all lumbar-
                   sacral orthoses codes. Medicare allowed $96 million for code L0631
                   alone—58 percent of the total 2011 payments for all lumbar-sacral
                   orthoses. 5 Medicare-allowed amounts include the 80 percent that
                   Medicare pays and the 20 percent the beneficiary pays as a copayment.
                   The L0631 code is one of seven lumbar-sacral codes for prefabricated
                   back orthoses. The remaining six lumbar-sacral codes are for
                   custom-fabricated back orthoses. According to local coverage policy
                   articles for back orthoses, prefabricated back orthoses are “manufactured
                   in quantity without a specific patient in mind” and custom-fabricated
                   orthoses are “individually made for a specific patient.” 6
                   Medicare payment amounts for durable medical equipment, prosthetics,
                   orthotics, and supplies (DMEPOS) are based on fee schedules. Medicare
                   pays the lower of the supplier charge for the item or the fee schedule
                   amount. Medicare uses a separate fee schedule for each State to account
                   for geographic differences in prices. For prosthetics and orthotics,
                   Medicare uses regional fee schedule amounts, which are the weighted
                   averages of the statewide fee schedule amounts in each CMS region.




                   4
                     According to the LCD in note 3 above, L0631 is defined as “lumbar-sacral orthosis, sagittal
                   control, with rigid anterior and posterior panels, posterior extends from sacrococcygeal
                   junction to T-9 vertebra, produces intracavity pressure to reduce load on the intervertebral
                   discs, includes straps, closures, may include padding, shoulder straps, pendulous abdomen
                   design, prefabricated, includes fitting and adjustment.”
                   5
                     Summary analysis of CMS’ Services Tracking, Analysis, & Reporting System National
                   Database.
                   6
                     Local Coverage Article for Spinal Orthoses: TLSO and LSO (A23663), July 1, 2010. This
                   is the Policy Article for one of the four DMEPOS claims processors. The other three claims
                   processors have identical Policy Articles. Policy Article A23663 was accessed at
                   http://www.medicarenhic.com/dme/medical_review/mr_lcds/mr_lcd_current/L11470_2010-
                   01-01_PA_2010-07.pdf on October 5, 2011.



Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                  2
                   The 2011 fee schedule amounts for L0631 ranged from $906.34 to
                   $940.65. 7
                   The payment amount for L0631 includes fitting and adjustment services.
                   The local coverage determinations for back orthoses do not define “fitting
                   and adjustment.” They also do not specify that certain types of personnel,
                   such as certified orthotists, should perform fitting and adjustment services.
                   Suppliers are not required to provide any additional services to
                   beneficiaries receiving L0631 back orthoses.
                   Competitive Bidding for DMEPOS
                   For some DMEPOS, payment amounts are set through competitive
                   bidding in certain jurisdictions. Under the DMEPOS Competitive Bidding
                   Program, suppliers compete to become Medicare contract suppliers by
                   submitting bids to furnish certain items in a geographical area. CMS
                   awards contracts to suppliers that offer lower prices and meet the
                   program’s quality and financial standards. 8 However, back orthoses are
                   not among the DMEPOS items included in competitive bidding.
                   Inherent Reasonableness Authority
                   CMS has the authority to adjust Medicare payment amounts that are not
                   inherently reasonable. 9 The Act requires that payments made under
                   Medicare Part B be “reasonable.” 10 The Act provides that CMS may
                   establish a special reasonable payment limit for a category of service if,
                   after consultation with representatives of affected parties (such as
                   suppliers), it determines that payment amounts are grossly deficient or
                   excessive. CMS staff reported that, since the implementation of fee
                   schedules in 1989, the agency has used its inherent reasonableness
                   authority successfully once, in 1995, to lower the payment amounts for
                   standard home blood glucose monitors. 11

                   METHODOLOGY
                   Data Sources and Collection
                   Sample Selection. From CMS’s National Claims History (NCH) file, we
                   extracted all claims for L0631 back orthoses that (1) had dates of service
                   between July 1, 2010, and June 30, 2011; (2) had an allowed charge
                   greater than $0.00; (3) were from suppliers within the 50 States and the

                   7
                     The range excludes the fee schedule amounts for Puerto Rico, Virgin Islands, and other U.S.
                   territories.
                   8
                     Social Security Act (the Act), § 1847(b)(2)(A).
                   9
                     The Act, §§ 1834(a)(10)(B) and 1842(b)(8) and (9).
                   10
                      Coverage for L0631 back orthoses is provided under Medicare Part B.
                   11
                      60 Fed. Reg. 3405 (Jan. 17, 1995).



Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                  3
                   District of Columbia; and (4) had a specific National Provider Identifier
                   (NPI) for the supplier. As Table 1 shows, the Medicare allowed amount
                   for all claims in the universe totaled $83 million.
                   From this universe of claims we selected a two-stage cluster sample. For
                   the first stage, we randomly selected 350 of the total 3,131 suppliers.
                   These sampled suppliers had between 1 and 3,537 allowed claims. For the
                   second stage, we randomly selected 1 claim from each of the
                   350 suppliers. We removed two claims filed by two suppliers that were
                   under investigation by the Office of Inspector General’s (OIG) Office of
                   Investigations.
                   Supplier Survey. We used the NPI from each claim to obtain contact
                   information for each supplier from CMS’s National Plan & Provider
                   Enumeration System. We sent letters to the suppliers asking them to
                   complete an online survey regarding their L0631 claims and to provide
                   relevant documentation, such as invoices and physician orders. We made
                   a minimum of three written attempts to obtain information from the
                   sampled suppliers. If we received no information after three attempts, we
                   attempted to contact the supplier by telephone and/or email.
                   For the specific product provided by the supplier, we requested (1) the
                   manufacturer name; (2) the model name; (3) the model number,
                   (4) a description of the item; (5) the acquisition cost (reflective of any
                   discounts, rebates, fees, or charges); and (6) the physician order for the
                   item.
                   We also requested that each supplier describe the services it provided the
                   beneficiary. We asked suppliers about their fitting and adjustment
                   services, any instructions regarding the use of the orthoses, and a
                   description of any other services provided.
                   Table 1 shows the number of claims, suppliers, and Medicare-allowed
                   amounts for the population, sample, and survey respondents. We removed
                   six claims for six suppliers that reported they erroneously billed for L0631
                   back orthoses. In each of those cases, the supplier billed Medicare for an
                   L0631 orthosis but actually provided the beneficiary with some other type.
                   Twenty-one suppliers did not complete the survey. Of those, four did not
                   complete the survey because their businesses had closed. Four could not
                   be reached because their addresses were incorrect and their letters were
                   returned as undeliverable. Another 13 suppliers never responded after
                   receiving our survey request letters and followup calls. 12



                   12
                        OIG referred the 21 suppliers that did not respond to the survey to CMS.



Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                      4
                   Table 1: Population and Sample Size

                                                               Population        Sample    Respondents


                    Suppliers                                         3,131         350            321

                    Claims                                          90,181          350            321

                    Allowed Amount                            $82,819,632       $319,592      $293,901

                   Source: OIG analysis of claims extracted from NCH file.


                   We reviewed 321 claims from the 321 suppliers that responded to the
                   survey. One respondent provided documentation but did not complete the
                   survey. However, on the basis of its documentation, we included that
                   supplier in our analysis.
                   Data Analysis
                   For the 321 suppliers who responded to our survey, we compared
                   Medicare’s allowed amount to supplier acquisition costs for L0631 back
                   orthoses and determined the extent to which suppliers provided services
                   associated with them.
                   Supplier Acquisition Cost. To calculate the supplier acquisition cost for
                   each orthosis, we asked suppliers to provide the invoice purchase prices as
                   well as any discounts or fees associated with the purchases. To calculate
                   acquisition cost, we subtracted any discounts from the invoice purchase
                   price and added any fees. When suppliers provided prices, discounts, or
                   fees that were not supported in their documents, we used the information
                   in the documentation for our calculations. The calculation of acquisition
                   cost does not include a supplier’s indirect costs, such as the cost of
                   performing services or other supplier business expenses.
                   Discounts received by suppliers included rebates, prompt-pay discounts,
                   volume discounts, and other discounts. Fees paid by suppliers included
                   delivery charges, fuel charges, and sales taxes. When suppliers received
                   orthoses as part of a delivery with other items, we prorated the delivery
                   charge on the basis of the number of items on the shipment documentation
                   provided by the suppliers. In five cases, suppliers did not have
                   documentation indicating the number of other items that were included
                   with shipment of the orthoses. We used the full delivery charges they
                   reported for our calculations.
                   Differences Between Allowed Amount and Supplier Acquisition Cost. For
                   each claim in the sample, we calculated the difference between the
                   Medicare-allowed amount and the supplier acquisition cost. We then
                   calculated the average dollar amount difference across all claims. We
                   projected this difference to determine the total dollar amount difference



Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                            5
                   between what Medicare and its beneficiaries paid and what suppliers paid
                   for the orthoses. We also calculated the average percentage difference
                   between the Medicare-allowed amount and the supplier acquisition cost.
                   We also analyzed beneficiary copayments for L0631 back orthosis claims.
                   From the copayment information included on each claim, we calculated
                   the average beneficiary copayment across all claims. In addition, we
                   totaled beneficiary copayment amounts across all L0631 back orthosis
                   claims.
                   Models of Common L0631 Orthoses Provided by Suppliers. For each
                   claim, we requested that the supplier report the manufacturer and model of
                   the orthosis provided. We aggregated suppliers’ responses to determine
                   which models were most commonly provided.
                   Services Provided by Supplier. We calculated the percentage of claims that
                   involved fitting and adjustment services provided by suppliers. We also
                   calculated the percentage of claims in which suppliers provided fitting and
                   adjustment services at the beneficiaries’ homes, on the suppliers’ premises,
                   or at other locations. We calculated the percentage of fitting and
                   adjustment services provided by physicians; certified orthotists; office
                   personnel; or others, such as manufacturer representatives.
                   We also calculated the percentage of claims in which suppliers provided
                   instructions to beneficiaries and the percentage of claims in which
                   suppliers provided any other services.
                   Type of Delivery. We determined how suppliers delivered L0631 back
                   orthoses. Each supplier indicated whether the orthosis was provided on
                   the supplier’s premises, by personal delivery from the supplier to the
                   beneficiary, through a third-party parcel service, by direct delivery from
                   the manufacturer of the orthosis, or by some other means. We calculated
                   the percentage of claims for which suppliers used each method.
                   Point Estimates and Confidence Intervals. We developed point estimates
                   and confidence intervals at the 95-percent confidence level for all statistics
                   presented in the findings of this report. This information is provided in
                   Appendix A. While the response rate for suppliers surveyed was
                   92 percent (321 of 350), the claims associated with these 321 suppliers
                   represented 56 percent of the claims associated with all 350 sampled
                   suppliers. Therefore, the results of our analysis are representative only of
                   56 percent of the entire population of L0631 claims.




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                   6
                   FINDINGS
                   Medicare payment amounts were more than four times
                   greater than the supplier acquisition costs for L0631
                   back orthoses
                   Between July 1, 2010, and June 30, 2011, the average Medicare-allowed
                   amount was 380 percent higher than the average supplier acquisition cost.
                   During that period, the average Medicare-allowed amount for L0631 back
                   orthoses was $919, which was more than four times greater than the
                   average acquisition cost of $191. The average difference between the
                   Medicare-allowed amount and supplier acquisition costs was $728.
                   Medicare allowed between $400 and $942 for L0631 back orthoses, while
                   suppliers paid as little as $0 and as much as $995 for them. 13
                   For almost all claims (99.6 percent), the Medicare-allowed amounts
                   exceeded the suppliers’ acquisition costs. Suppliers purchased 75 percent
                   of orthoses for $234 or less, half for $168 or less, and 25 percent for $152
                   or less.
                   Medicare and its beneficiaries paid $37 million more for L0631
                   back orthoses than suppliers paid to purchase them
                   Medicare allowed a total of $83 million for L0631 claims between
                   July 1, 2010, and June 30, 2011. 14 Medicare and its beneficiaries paid
                   $37 million more for L0631 back orthoses than suppliers paid to acquire
                   them. 15
                   Beneficiary copayments alone would have almost covered suppliers’
                   L0631 acquisition costs. Beneficiaries are responsible for paying 20
                   percent of the Medicare-allowed amount for back orthoses. The average
                   beneficiary copayment for L0631 orthoses was $184, while the average
                   supplier acquisition cost was $191. Collectively, beneficiaries paid
                   $9.3 million for L0631 back orthoses that cost suppliers $9.7 million.




                   13
                      One supplier reported paying nothing for its L0631 orthosis because the vendor provided it
                   as a sample, free of charge. OIG referred this supplier to CMS.
                   14
                      Total allowances are for the claims that met the parameters outlined in the Methodology
                   section of this report.
                   15
                      As described in the Methodology section, the results of our analysis represent 56 percent,
                   or $47 million, of the entire population of L0631 claims. The $37 million is calculated on the
                   basis of this $47 million.




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                   7
                   Discounts and fees did not substantially affect suppliers’
                   acquisition costs for L0631 orthoses
                   Suppliers received discounts on 22 percent of the orthoses they purchased.
                   The average discount was $11 (this includes volume discounts, prompt-
                   pay discounts, rebates, and other discounts). Suppliers paid delivery fees
                   or other fees, such as sales tax, on 62 percent of the orthoses they
                   purchased. The average fee was $7. We factored discounts and fees into
                   the suppliers’ acquisition costs.
                   The majority of claims were for orthoses that suppliers
                   acquired directly from manufacturers
                   For 67 percent of claims, suppliers purchased L0631 back orthoses
                   directly from manufacturers. Another 31 percent of orthoses were
                   purchased from wholesalers and 2 percent from other sources, such as
                   distributors or retailers. Back orthoses purchased from manufacturers
                   were slightly less expensive than those purchased from wholesalers. On
                   average, suppliers purchasing from manufacturers paid $180 while those
                   purchasing from wholesalers paid $212. The few suppliers who acquired
                   orthoses from other sources paid an average of $256.
                   Three orthosis models accounted for almost half (48 percent)
                   of all L0631 claims
                   The Prolign model, manufactured by DeRoyal Industries, Inc., accounted
                   for 28 percent of L0631 claims. The DDS-500 model, manufactured by
                   Disc Disease Solutions, Inc., and the Summit model, manufactured by
                   Aspen Medical Products, Inc., each accounted for 10 percent. Appendix B
                   lists all of the manufacturers and models reported by suppliers and
                   provides point estimates for the percentage of claims associated with each.

                   Suppliers did not report providing fitting and
                   adjustment services for one-third of claims
                   Fitting and Adjustment Services. Fitting and adjustment services are
                   included in the payment amount for L0631 back orthoses. For one-third
                   of claims, suppliers did not report providing fitting and adjustment
                   services to beneficiaries. Among the remaining two-thirds of claims, the
                   extent of the reported fitting and adjustment services varied. Some
                   suppliers’ documentation indicated that the services entailed taking
                   measurements, such as the beneficiary’s hip and waist size. Other
                   suppliers’ documentation indicated that they made physical adjustments to
                   back orthoses to fit beneficiaries properly.
                   For 42 percent of claims involving fitting and adjustment services,
                   suppliers reported that the services were provided not by specialized staff,


Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                 8
                   but by office personnel. A certified orthotist provided fitting and
                   adjustment services for 9 percent of claims. Another 48 percent of claims
                   involved services performed by physicians or other professionals, such as
                   registered nurses, chiropractors, physical therapists, or DMEPOS fitters.
                   For the remaining 1 percent of claims, fitting and adjustment services were
                   provided by others, such as manufacturing representatives.
                   The majority of fitting and adjustment services were not provided in
                   beneficiaries’ homes. Suppliers reported providing 58 percent of fitting
                   and adjustment services on the suppliers’ premises. About a quarter
                   (27 percent) of fitting and adjustment services were provided in
                   beneficiaries’ homes. Another 15 percent were provided in other
                   locations, such as a doctor’s office.
                   Additional Services. Although most suppliers (91 percent) provided
                   general instructions on the use of the back orthosis, for the vast majority of
                   claims (93 percent), suppliers did not report providing any other types of
                   services regarding L0631 back orthoses. 16 Additional services that were
                   reported included making followup phone calls and providing information
                   regarding patient rights and responsibilities.
                   Delivery Services. For many claims, suppliers did not provide personal
                   delivery to beneficiaries. Forty-three percent of claims were from
                   suppliers that provided orthoses to beneficiaries on the suppliers’
                   premises. For 19 percent of claims, suppliers used third parties (e.g., UPS,
                   FedEx) to ship the orthoses to beneficiaries. For 38 percent, suppliers
                   delivered the orthoses to beneficiaries.




                   16
                      General instructions include information such as the proper way to put on and remove the
                   back orthosis as well as its cleaning and care.



Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                    9
                   CONCLUSION AND RECOMMENDATION
                   Medicare payment amounts were substantially more than suppliers’
                   acquisition costs for L0631 back orthoses. Consequently, Medicare and its
                   beneficiaries paid approximately $37 million more for these orthoses than
                   suppliers paid to purchase them. For one-third of claims, suppliers did not
                   provide the fitting and adjustment services included in the payment
                   amounts. For the vast majority of claims (93 percent), suppliers did not
                   provide any additional services related to L0631 back orthoses other than
                   general instructions.
                   The significant difference between the Medicare allowed-amount and
                   supplier acquisition cost, especially in light of the noncustomized nature
                   of the L0631 back orthosis and the limited services provided to
                   beneficiaries, warrants an examination by CMS of its current payment
                   amount.
                   We recommend that CMS:
                   Lower the Fee Schedule Amount for the L0631 Back Orthosis
                   CMS could take one of the following actions:
                        •   Include the L0631 back orthosis in the DMEPOS Competitive
                            Bidding Program. CMS could award contracts to suppliers that
                            offer more appropriate prices while also meeting the program’s
                            quality and financial standards.
                        •   Use its inherent reasonableness authority. The Medicare-allowed
                            amount for L0631 back orthoses exceeded the supplier acquisition
                            cost by an average of $728. The program and its beneficiaries
                            could have paid millions of dollars less if the Medicare
                            reimbursement amount for L0631 back orthoses more closely
                            resembled the cost to suppliers.




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                   10
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred that Medicare payments for L0631 back orthoses should
                   be adjusted to more closely reflect the suppliers’ acquisition costs for the
                   devices and the level of service provided when furnishing them. CMS
                   stated that it has invited comments on a list of HCPCS codes, including
                   code L0631, that were preliminarily classified as meeting the definition of
                   off-the shelf (OTS) orthotics. OTS orthotics, which require minimal self-
                   adjustment and do not require individual customization, are subject to the
                   DMEPOS Competitive Bidding Program. CMS stated that it is carefully
                   considering comments and consulting with experts in the orthotics field as
                   it works toward finalizing Medicare’s classification of OTS orthotic codes.
                   It believes that implementing competitive bidding for OTS orthotics
                   would result in new payment amounts for these items in competitive
                   bidding areas. CMS reported that, at this time, it does not want to use its
                   inherent reasonableness authority to adjust the payment amounts as it is
                   unlikely to undertake the required analysis prior to completing the
                   classification of OTS orthotic codes.
                   The full text of CMS's comments is provided in Appendix C.




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                11
APPENDIX A
Table A-1: Point Estimates and Confidence Intervals for L0631 Back
Orthoses Findings
                                                  Number of
 Estimate Description                                Sample        Point Estimate      95% Confidence Interval
                                                  Responses

 Percentage by which the average
 Medicare- allowed amount exceeded the                    321                   380%             335% to 426%
 average supplier acquisition cost


 Average Medicare-allowed amount                          321                   $919              $914 to $924



 Average acquisition cost                                 321                   $191              $173 to $210


 Average difference between the
 Medicare-allowed amount and supplier                     321                   $728              $710 to $745
 acquisition cost

 Percentage of claims for which the
 Medicare-allowed amounts exceeded                        321              99.59%            97.57% to 99.93%
 suppliers’ acquisition costs


 Median acquisition cost                                  321                   $168              $147 to $188



 Supplier acquisition cost 75th percentile                321                   $234              $209 to $259



 Supplier acquisition cost 25th percentile                321                   $152              $138 to $166


 Percentage of claims for which the supplier
                                                          321                   22%                  9% to 46%
 acquisition costs included discounts


 Average amount of discounts received by
                                                           65                    $11                  $2 to $19
 suppliers


 Percentage of claims for which the supplier
                                                          321                   62%                44% to 78%
 acquisition costs included fees


 Average amount of fees paid by suppliers                 199                     $7                    $5 to $9


 Percentage of claims for orthoses acquired
                                                          321                   67%                52% to 79%
 from manufacturers


 Percentage of claims for orthoses acquired
                                                          321                   31%                19% to 45%
 from wholesalers

                                                                                           continued on next page




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                  12
Table A-1: Point Estimates and Confidence Intervals for L0631 Back
Orthoses Findings (continued)
                                                  Number of
 Estimate Description                                Sample        Point Estimate       95% Confidence Interval
                                                  Responses

 Percentage of claims for orthoses acquired
                                                          321                    2%                      1% to 5%
 from other sources


 Average price of orthoses acquired from
                                                          170                   $180                 $156 to $204
 manufacturers


 Average price of orthoses acquired from
                                                          130                   $212                 $184 to $240
 wholesalers


 Average price of orthoses acquired from
                                                           21                   $256                 $213 to $299
 other sources


 Percentage of claims for Prolign L0631
                                                          321                   28%                   13% to 50%
 back orthoses


 Percentage of claims for Summit L0631
                                                          321                   10%                     5% to 17%
 back orthoses


 Percentage of claims for DDS-500 L0631
                                                          321                   10%                     3% to 24%
 back orthoses

 Additional amount that Medicare and its
 beneficiaries paid compared to suppliers’                321         $36,811,464      $25,098,260 to $48,524,668
 acquisition costs


 Average beneficiary copayment                            321                   $184                 $183 to $186



 Total beneficiary copayments                             321          $9,327,080       $6,446,557 to $12,207,602



 Total supplier acquisition cost                          321          $9,686,441       $6,830,225 to $12,542,656


 Percentage of suppliers that provided
                                                          321                   91%                   83% to 96%
 instructions to beneficiaries


 Percentage of suppliers that did not report
                                                          321                   33%                   18% to 53%
 providing fitting and adjustment services


 Percentage of fitting and adjustment
                                                          266                   58%                   42% to 72%
 services provided on suppliers’ premises


 Percentage of fitting and adjustment
                                                          266                   27%                   15% to 43%
 services provided in beneficiaries’ homes


 Percentage of fitting and adjustment
                                                          266                   15%                     7% to 32%
 services provided in other locations

                                                                                              continued on next page




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                     13
Table A-1: Point Estimates and Confidence Intervals for L0631 Back
Orthoses Findings (continued)
                                                   Number of
 Estimate Description                                 Sample         Point Estimate   95% Confidence Interval
                                                   Responses

 Percentage of fitting and adjustment
                                                           266                  42%               27% to 58%
 services provided by office personnel


 Percentage of fitting and adjustment
                                                           266                  9%                 6% to 14%
 services involving certified orthotists

 Percentage of fitting and adjustment
 services provided by physicians or other                  266                  48%               33% to 63%
 professionals

 Percentage of fitting and adjustment
                                                           266                  1%               0.37% to 4%
 services provided by other staff

 Percentage of suppliers that reported not
 providing other types of services related to              321                  93%               84% to 97%
 orthoses

 Percentage of suppliers that provided
                                                           321                  43%               29% to 58%
 orthoses on their premises

 Percentage of suppliers that delivered
 orthoses through third parties, such as                   321                  19%                6% to 46%
 FedEx

 Percentage of suppliers that provided
                                                           321                  38%               25% to 54%
 orthoses by personal delivery

 Source: Office of Inspector General analysis of survey responses, 2012.




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                              14
APPENDIX B
Table B-1: L0631 Back Orthosis Models Provided to Beneficiaries
The Centers for Medicare & Medicaid Services contracts with a Pricing, Data Analysis,
and Coding (PDAC) Contractor to develop product classification lists that provide
information on models of back orthoses that would meet the requirements for the L0631
code. Not all of the manufacturers and models provided below were included in the
L0631 Product Classification list displayed on the PDAC Contractor’s Web site as of
September 2012.

                                                                                   Point      95% Confidence
Manufacturer                             Model
                                                                                Estimate             Interval
DeRoyal Industries, Inc.                 Prolign                                    28%            13% to 50%
Aspen Medical Products, Inc.             Summit                                     10%              5% to 17%
Disc Disease Solutions, Inc.             DDS-500                                    10%              3% to 24%
Bell-Horn/Cybertech Medical              Premium Plus                                7%              3% to 17%
Spinal Rehab Solutions, Inc.             SR 500                                      7%              3% to 18%
American Medical Products                Freedom LSO                                 6%              2% to 20%
Bauerfeind USA, Inc.                     Lumbo Plus                                  4%          0.76% to 20%
Hope Orthopedic                          Ninja LSO                                   3%          0.71% to 14%
Swedo-O/United Pacific Industries Pty.
                                         Thermoskin 87273                            3%          0.48% to 17%
Ltd.
BSN Medical/FLA Orthopedics, Inc.        Cinch-Loc                                   3%               2% to 6%
Ossur Americas, Inc.                     Miami                                       3%               1% to 8%
M-Brace                                  M-Spine 584                                 2%            0.69% to 8%
XBACK Bracing Services, Inc.             X-Back T105                                 1%            0.32% to 7%
Orthomerica Products, Inc.               California Mid Profile                      1%            0.61% to 3%
Advanced Orthotic Designs                Lace-it x640 LSO                            1%            0.18% to 7%
Aspen Medical Products, Inc.             Aspen LSO                                0.92%            0.40% to 2%
Restorative Medical, Inc.                VertebrEase TLSO                         0.87%            0.13% to 5%
Optec USA, Inc.                          Evotec                                   0.71%            0.12% to 4%
Med Practice Solutions                   Flex LSO                                 0.71%            0.21% to 2%
ActiveCare Medical/Drive Medical         VerteWrap LSO                            0.62%            0.10% to 4%
Aspen Medical Products, Inc.             Aspen LSO LoPro                          0.48%            0.09% to 3%
XBACK Bracing Services, Inc.             X-Back-II                                0.46%            0.07% to 3%
Breg, Inc.                               BOA                                      0.42%            0.07% to 3%
DeRoyal Industries, Inc.                 Prolign EXT                              0.42%            0.09% to 2%
XBACK Bracing Services, Inc.             X-Back T102                              0.42%            0.14% to 1%
Bledsoe Brace Systems                    Volare                                   0.32%            0.05% to 2%
Restorative Care of America, Inc.        450 LSO                                  0.28%        0.09% to 0.85%
Orthomerica Products, Inc.               California Chairback                     0.23%        0.06% to 0.91%
Hope Orthopedic                          Ortholux Lite                            0.23%        0.06% to 0.86%
Swede-O, Inc.                            Rigid Lumbar Support                     0.21%            0.04% to 1%
                                                                                           continued on next page




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                 15
Table B-1: L0631 Back Orthosis Models Provided to Beneficiaries
(continued)
                                                                                   Point      95% Confidence
Manufacturer                             Model
                                                                                Estimate             Interval
Advanced Orthopaedics                    Spinal Web 31                            0.21%            0.04% to 1%
MIH International                        ActivDay 501 LSO                         0.19%        0.04% to 0.93%
Medical Specialties, Inc.                Archimed Spinal Brace                    0.18%            0.03% to 1%
                                         California Soft Spinal System LSO
Orthomerica Products, Inc.                                                        0.16%        0.04% to 0.62%
                                         with PSR
Hope Orthopedic                          Ortholux LSO                             0.14%        0.06% to 0.34%
Optec USA, Inc.                          Stealth                                  0.14%        0.04% to 0.48%
BSN Medical/FLA Orthopedics, Inc.        System-Loc                               0.14%        0.02% to 0.92%
DeRoyal Industries, Inc.                 Ultralign                                0.11%        0.03% to 0.35%
Hope Orthopedic                          Vertalux                                 0.11%        0.02% to 0.69%
Orthomerica Products, Inc.               California Low Profile                   0.07%        0.02% to 0.23%
Aspen Medical Products, Inc.             Contour                                  0.07%        0.01% to 0.46%
                                         Lumbamed Multi Stage Lumbar
Medi USA, LP                                                                      0.07%        0.01% to 0.46%
                                         Support
Hope Orthopedic                          Ninja Pro                                0.05%        0.01% to 0.35%
Freeman Manufacturing Co.                C.A.S.H. Orthosis                        0.04%        0.01% to 0.23%
                                         California CPO Chairback Mid
Orthomerica Products, Inc.                                                        0.04%        0.01% to 0.23%
                                         Profile
Surgical Appliance Industries, Inc.      Lumbotek 2 Lumbosacral Support           0.04%        0.01% to 0.23%
M-Brace                                  M-Spine 574                              0.04%        0.01% to 0.14%
Cybertech Medical                        Original and Chairback                   0.04%        0.01% to 0.23%
Aspen Medical Products, Inc.             Quickdraw                                0.04%        0.01% to 0.14%
Professional Products, Inc.              Rachis                                   0.04%        0.01% to 0.23%
Swede-O/United Pacific Industries Pty.
                                         Thermoskin 85273                         0.04%        0.01% to 0.23%
Ltd.
XBACK Bracing Services, Inc.             X-Back T108                              0.04%        0.01% to 0.23%
Cropper Medical, Inc./Bio Skin           Black Jack                               0.02%       0.003% to 0.12%
Orthomerica Products, Inc.               California Ventura                       0.02%       0.003% to 0.12%
Restorative Care of America, Inc.        Control Fit TLSO                         0.02%       0.003% to 0.12%
Spinal Technology, Inc.                  Custom LSO Lined Single Opening          0.02%       0.003% to 0.12%
US Orthotics                             Fullback XPA-10                          0.02%       0.003% to 0.12%
Surgical Appliance Industries, Inc.      Knight                                   0.02%       0.003% to 0.12%
Kydex                                    Kydex Chairback Brace                    0.02%       0.003% to 0.12%
Hely & Weber                             Low Profile Solly                        0.02%       0.003% to 0.12%
Ottobock                                 Lumbo Tristep                            0.02%       0.003% to 0.12%
Aspen Medical Products, Inc.             Multiple piece system                    0.02%       0.003% to 0.12%
Oasis Orthopedics                        Oasis TLSO                               0.02%       0.003% to 0.12%
NeuMed, Inc.                             Orthofect LSO Brace                      0.02%       0.003% to 0.12%
Premier Orthopedic Supply, Inc.          Premier LSO                              0.02%       0.003% to 0.12%
                                                                                           continued on next page




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                 16
 Table B-1: L0631 Back Orthosis Models Provided to Beneficiaries
 (continued)
                                                                                    Point   95% Confidence
 Manufacturer                                Model
                                                                                 Estimate          Interval
 ActiveCare Medical                          VerteWrap Low Profile LSO             0.02%    0.003% to 0.12%
 XBACK Bracing Services, Inc.                X-Back T100                           0.02%    0.003% to 0.12%
 Total                                                                              99%1

Source: Office of Inspector General analysis of survey responses, 2012.
¹ The table does not include two back orthoses that two suppliers fabricated.




 Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                          17
                    APPENDIXC
                    Agency Comments


    /""Vk"~,


  f -'-          DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Centers for Medicare & Medicaid Services



   '~~                                                                                       Administrator
                                                                                             Washington, DC 20201




               DATE:          OCT 2 5 2012

               TO: 	            Daniel R. Levinson
                                Inspector General
                                                    /S/
               FROM: 	          Mareyn Tavenner
                                Acting AdminisN"ator

               SUBJECT: 	       Office o~or General (OIG) Draft Report: Medicare Supplier Acquisition
                                Costs for L0631 Back Orthoses (OEI-03-11-00600)


               Tht: Centers for Medicare & Medicaid Services (CMS) would like to thank you for the
               opportunity to review and comment on the OIG draft report entitled, "Medicare Supplier
               Acquisition Costs for L0631 Back Orthoses." The draft report compares suppliers' acquisition
               costs for back orthoses coded under L0631 with Medicare's 2011 fee schedule amounts. Also
               detailed within the report is the nature and frequency of services performed by suppliers in
               relation to Ul631 back orthoses.

               The OJG draft report provides valuable insight for CMS on suppliers' costs for L0631 back
               orthoses. Notably, the report reveals that Medicare and beneficiaries paid suppliers an average
               of $728 beyond the supplier's acqUisition cost for an 10631 back orthosis. · This was coupled
               with a finding that for one third of the claims, suppliers did not provide any fitting and
               adjustment services. OIG recommendations and CMS's response to those recommendations are
               discussed below.

                OIG Recommendation

                The OIG recommends that CMS lower the Fee Schedule Amount for the L0631 Back Orthosis.
                CMS could take one of the following actions:

                    • 	 Include the L0631 back orthosis in the Durable Medical Equipment, Prosthetics,
                        OrthOtics, and Supplies (DMEPOS) Competitive Bidding Program. CMS could award
                        contracts to suppliers who offer more appropriate prices while also meeting the
                        program's quality and financial standards.

                       • 	 Use its inherent reasonableness authority. The Medicare allowed amount for L0631
                           back orthoses exceeded the supplier acquisition cost by an average of $728. The
                           program and its beneficiaries could have paid millions of dollars less if the Medicare
                           reimbursement amount for L0631 back orthoses more closely resembled the cost to
                           suppliers.




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)                                                           18
Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)   19
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                   Tanaz Dutia served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Philadelphia regional office who
                   conducted the study include Russell Tisinger and Nancy J. Molyneaux.
                   Central office staff who provided support include Meghan Kearns,
                   Debra Roush, and Tasha Trusty.




Medicare Supplier Acquisition Costs for L0631 Back Orthoses (OEI-03-11-00600)              20
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
